A

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3406

RaySean D. Barber
Plaintiff - Appellant
Guy Collins
Plaintiff
v.
Scott Frakes; Taggart Boyd; Ted Hill; Miki Hollister; Kristina Milbum; Nate Shwab; Dr. Mark
Lukin; Dr. Megan Ford; Betty Gergen; Jacque Gooding; Amy Rezney; Robin Church
Defendants - Appellees
Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:18-cv-00410-RGK)
JUDGMENT

Before LOKEN, BENTON, and GRASZ, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district couxt is summarily affirmed. See Eighth Circuit
Rule 47A(a).
January 20, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX B

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
RAYSEAN BARBER,
Plaintiff,

8:18CV410

vs.
MEMORANDUM AND ORDER
SCOTT FRAKES, TAGGART BOYD,
TED HILL, MIKI HOLLISTER,
KRISTINA MILBURN, NATE SHWAB,
DR. MARK LUKIN, DR. MEGAN
FORD, BETTY GERGEN, JACQUE
GOODING, AMY REZNEY, and
ROBIN CHURCH,
Defendants.

This matter is before the court upon review of Plaintiffs Amended
Complaint. (Filing25.) The court conducts this review pursuant to 28 U.S.C. §§
1915(e) and 1915A which require the court to dismiss a prisoner or in forma
pauperis complaint or any portion of it that states a frivolous or malicious claim,
that fails to state a claim upon which relief may be granted, or that seeks monetary
relief from a defendant who is immune from such relief. For the reasons explained
below, this matter will be dismissed.
I. BACKGROUND
On August 27, 2018, Plaintiff, an inmate currently confined at the Lincoln
Correctional Center (“LCC”), and another inmate, Guy Collins (“Collins”), filed
the Complaint in this case. Collins was dismissed as a plaintiff in this actioli after
he failed to advise the court in writing whetherhewishedto “opt out”or continue
with the group litigation. (Filing 13.) Plaintiff, proceeding as the sole plaintiff,
sought relief pursuant to 42 U.S.C. §§ 1983 and 1985 against Scott Frakes

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 2

(“Frakes”), Director of the Nebraska Department of Correctional Services
(“NDCS”); Taggart Boyd (“Boyd”), the Warden of the LCC; and 10 employees of
the LCC for alleged violations of his constitutional rights under the First, Eighth,
and Fourteenth Amendments. Liberally construed, Plaintiff also alleged a violation
of the Americans with Disabilities Act (“ADA”), 42U.S.C.§§ 12101-12213.
The court conducted an initial review of Plaintiff s Complaint on June 10,
2019. (Filing 14.) Because Plaintiff failed to specify in what capacity Defendants
were sued, the court presumed they were sued in their official capacity only.
Accordingly, Plaintiffs claims for damages against Defendants in their official
capacities were barred by sovereign immunity. The court additionally determined
that Plaintiffs claims for prospective injunctive relief were moot and he lacked
standingto seek declaratory relief because he was confined at the Tecumseh State
Correctional Institution (“TSCI”) and was no longer subject to the LCC Mental
1 Health Unit (“MHU”) Levels Program that was the subject of his Complaint.
However, the court granted Plaintiff leave to file an amended complaint that stated
a plausible claim for relief against Defendants in their individual capacities.
On July 23, 2019, the court entered a Memorandum and Order and Judgment
dismissing this matter without prejudice because Plaintiff failed to file an amended
complaint within the allotted time. (Filings 15 & 16.) On August 6 and August 14,
2019, Plaintiff filed motions for relief from judgment pursuant to Federal Ru les of
Civil Procedure 59(e) and 60(b) becauseheneverreceived the court’s June 10,
2019 Memorandum and Order directing him to file an amended complaint. (Filings
17 & 20.)On February 11,2020, the court granted Plaintiffs motions, vacated its
order and judgment of dismissal, and gave Plaintiff 30 days to file an amended
complaint. (Filing 24.)
Plaintiff filed his Amended Complaint on February 24, 2020. (Filing 25.)
Along with his Amended Complaint, Plaintiff also filed a Motion for Relief from
Judgment seeking relief from the court’s prior determination that his claims for
2

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 3

injunctive and declaratory relief were moot because Plaintiff had been returned to
theLCCMHU. (Filing26.)
II. SUMMARY OF AMENDED COMPLAINT
Plaintiff s Am ended Complaint names the same twelve Defendants as his
original Complaint: Frakes, Boyd, and the ten LCC employees making up the
MHU Multi-Disciplinary Team. (Filing 25 at CM/ECFpp. 2, 4-5, H 2, 13-24.)
However, Plaintiff now specifies that eleven of those Defendants are sued in their
individual capacities.1 Plaintiffs Amended Complaint essentially restates the
allegations of the original Complaint and raises the same claims under the First,
Eighth, and Fourteenth Amendments and the ADA. The Amended Complaint also
still lists Collins as a co-plaintiff and is signed by Collins. (See Id. at CM/ECF p.
12.) However, Collins is no longer a party to this action, and the court will not
address those allegations pertaining solely to Collins.2
Plaintiff alleges he has been diagnosed with a serious mental illness and is
housed in the MHU at the LCC. {Id. at CM/ECF p. 1, f 1.) Plaintiff alleges that the
F Defendants deprive inmates in the MHU of activities and privileges without
^affordingan inmate a hearing or any of the procedures required by Title 68 of the
Nebraska Administrative Code, which sets forth the rules for regulating an
inmate’s behavior. (Id. at CM/ECF pp. 1-2, 1 2). Plaintiff further alleges that
1 Plaintiff did not specify in what capacity Defendant Robin Church is being sued.
(Filing 25 at CM/ECF p. 5, f 24.)
2 As a pro se litigant, Plaintiff may not represent the interests of other parties, like
Collins. Litschewski v. Dooley, No. 11-4105-RAL, 2012 WL 3023249, at *1 n. 1 (D.S.D.
July 24, 2012), aff’d, 502 Fed. Appx. 630 (8th Cir. 2013). Moreover, in order for Plaintiff
to proceed with his claims, he must have standing. As a general rule, to establish standing
a plaintiff must assert his legal rights or interests and not “the legal rights or interests of
third parties.” Worth v. Seldin, 422 U.S. 490, 498-99 (1975). Thus, Plaintiff may only
assert his own legal rights and interests in this action and not Collins’ legal rights and
interests.
3

Case: 8:18-cv-00410-RGK-PRSE

Document#: 28-1
of 17

Date Filed: 10/01/2020

Page 4

additional deprivations of privileges are imposed upon admission into the MHU
Levels Program “for reasons not directly having to do with the treatment of a
particular mental illness.”{Id. at CM/ECFpp. 2,7,(f][3, 32.) Inmates must sign a
consent form and a contract agreeing to the terms' of the MHU program prior to
enteringthe MHU and are informed that inmates “can be placed on a therap[e]utic
restriction.” {Id. at CM/ECF p. 7, % 31.) The MHU Multi-Disciplinary Team
administers the Levels Program which is “allowed by the Director of Corrections
[Frakes] and the Warden ofLCC [Boyd].” {Id. at^ 30.)
On June 1, 2018, Plaintiff alleges he was placed on “level D, which is a
restriction that is similar to the sanction ‘room restriction’ set forth in Title 68,” for
17 days without being afforded a hearing based on reports that he had engaged in
passing and receiving canteen items with other inmates. {Id. at CM/ECFp. 8, ^ 34.)
;v As a result of being placed on level D, Plaintiff lost his job as the lead porter on the
• MHU. {Id. at f 36.) The other inmate with whom Plaintiff allegedly exchanged
canteen items did not receive any type of restriction for his alleged m isconduct.
{Id. at CM/ECFp. 9, SI 37.)
a

Plaintiff alleges the MHU Multi-Disciplinary Team’s enforcement of the
Levels Program violated the First, Eighth, and Fourteenth Amendments, and that
“[a]ll Defendants, by agreeing to the enforcement of the levels program, . . . did
conspire, for the purpose of depriving, either directly or indirectly, Plaintiffs and
others similarly situated of the equal protection of the laws, or of equal privileges
or immunities under the laws ."{Id. at CM/ECFpp. 10-11, J[J[ 44-45.) For relief,
Plaintiff seeks a declaration that the Levels Program is unconstitutional, injunctive
relief enjoining the continuation of the MHU Levels Program, and monetary
damages. {Id. at CM/ECFp. 11.)

4

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 5

III. DISCUSSION
A. Claims for Injunctive and Declaratory Relief
As stated above, Plaintiffs Amended Complaint seeks injunctive and
declaratory relief with respect to the MHU Levels Program. Plaintiff also filed a
motion pursuant to Fed. R. Civ. P. 60(b) specifically seeking relief from the court’s
prior determination that his claims for injunctive relief were moot and he lacked
standing to seek declaratory relief because he hadbeen returnedto the MHU at the
LCC. (Filing 26.) Recently, however, Plaintiff filed a motion on August 14, 2020,
asking to withdrawhis Rule60(b) motion for the reason that he is “no[] longer on
the MHU, and thus cannot obtain the injunctive and declaratory relief requested in
his complaint.” (Filing 27.)
Upon consideration, Plaintiffs motion to withdrawhis Rule 60(b) motion
(filing 27) is granted. Thecourtwill dismiss Plaintiff sclaims for injunctive and
declaratory relief pursuant to his motion and the court’s reasoning in its previous
order on initial review (filing 14 at CM/ECF pp. 5-6).
B. First Amendment
Plaintiff alleges Defendants conspired to deprive him of his “right to
freedom of speech” “by depriving him of privileges for disciplinary reasons
withoutadheringtothe procedure promulgated in Title 68.” (Filing25 at CM/ECF
p.2,^4.)
“[A] prison inmate retains those First Amendment rights that are not
inconsistent with his status as a prisoner or with the legitimate penological
objectives of the corrections system.” Pell v. Procunier, 417 U.S. 817, 822(1974).
However, “[a]ny form of involuntary confinement, whether incarceration or
involuntary commitment, may necessitate restrictions on the right to free speech.”
5

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 6

Beaulieu v. Ludeman, 690F.3d 1017,1038-39 (8th Cir. 2012) (internal quotation
marks omitted). A prison action is constitutionally valid, even if it restricts a
prisoner’s constitutional rights,provided it is‘“reasonably related to legitimate
penological interests.Murphy v. MissouriDep’t of Corr., 372 F.3d 979, 982 (8th
Cir. 2004) (quoting Turner v. Safley, 482 U.S. 78, 89 (1987). As the Eighth Circuit
Court of Appeals has explained:
“Because the Constitution ‘permits greater restriction of [First
Amendment] rights in a prison than it would allow elsewhere,’
restrictive prison regulations are normally reviewed under the fourfactor Turner test to determine whether they are ‘reasonably related to
legitimate penological interests.’” [Holloway v. Magness, 666 F.3d
1076,1080 (8th Cir. 2012)] (citing Turner v. Safley, 482 U.S. 78, 107
S.Ct. 2254, 96 L.Ed.2d64 (1987))... . We consider four criteria in
applying this test:
(1) whether there is a valid, rational connection between the
regulation and legitimate governmental interests put forward to
justify it; (2) whether alternative means of exercising their
rights remain open to the prisoners; (3) whether
accommodation of the asserted rights will trigger a “ripple
effect” on fellow inmates and prison officials; and (4) whether a
ready alternative to the regulation would fully accommodate the
prisoners’ rights at de minimis cost to the valid penological
interest.
Beaulieu, 690 F.3d at 1039 (quoting Benzelv. Grammer, 869 F.2d 1105,1108 (8th
Cir. 1989)).
Here, Plaintiffs bare, conclusory allegation that the MHU Levels Program
violates his First Amendment right to free speech is unsupported by sufficient
factual allegations to state a plausible claim for relief. For example, Plaintiff does
not allege that he engaged in,orattemptedtoengagein, anyprotected speech nor
does he allege how the imposition of any restriction under the Levels Program
impeded his freedom of speech. Plaintiff s allegations fail to meet the pleading
6

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 7

standard set forth in Federal Rule of Civil Procedure 8(a)(2) requiring a “short and
plain statement of the claim showing that the pleader is entitled to relief.” See
Ashcroftv. Iqbal, 556 U.S. 662, 677-78 (2009) (“[T]hepleading standard Rule 8
announces does not require ‘detailed factual allegations,’ but it demands more than
an unadorned, the-defendant-unlawfully-harmed-me accusation.” (quoting Bell
Atlantic Corp. v. Twombly, 550U.S. 544, 555 (2007))). Therefore, Plaintiff has
failed to state a First Amendment free speech claim upon which relief may be
granted.
C. Due Process
Plaintiff alleges his due process rights were violated when Defendants
deprived him of privileges for punitive purposes without adhering to the
• ' disciplinary procedures set forth in Title 68 of the Nebraska Administrative Code.
More specifically, Plaintiff appears to allege that his due process rights were
violated when he was placed on a 17-day room restriction without a hearing and
lost his lead porter job as a result.
7

The Supreme Court has held that “[a]s long as the conditions or degree of
confinementto which the prisoner is subjected is within the sentence imposed
upon him and is not otherwise violative of the Constitution, the Due Process
Clause does not in it self subject an inmate’s treatment by prison authorities to
judicial oversight.”Montanyev. Haymes, 427 U.S. 236, 242 (1976). In order to
prevail on a Fourteenth Amendment due process claim, a plaintiff must allege that
he was deprived of life, liberty or property by government action. Phillips v.
Norris, 320 F. 3d 844, 846 (8th Cir. 2003). With respect to actions filed by prison
inmates, the court must determine whetherthe deprivation “impose[d] atypical and
significant hardship on the inmate in relation to the ordinary incidents of prison
life.” Sandin v. Conner, 515 U.S. 472,484 (1995); see also Callender v. Sioux City
Residential Treatment Facility, 88 F.3d 666, 669 (8th Cir. 1996) (noting that
following Sandin, courts focus on the deprivation itself and not on whether
7

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 8

mandatory language exists in statutes or prison regulations). “Discipline by prison
officials in response to a wide range of misconduct falls within the expected
perimeters of the sentence imposed by a court of law.” Sandin, 515 U.S. at 485.
Here, Plaintiffs 17-day room restriction plainly does not rise to the level of
atypical and significant. See Orrv. Larkins, 610F.3d 1032, 1034 (8th Cir. 2010)
(per curiam) (inmate was not deprived of liberty interest during nine months in
administrative segregation). The Eighth Circuit has consistently held that
“administrative and disciplinary segregation are not atypical and significant
hardships[.]”Por//ey-£7v. Brill, 288 F.3d 1063,1065 (8th Cir. 2002); Phillips, 320
F.3d at 847 (“We have consistently held that a demotion to segregation, even
without cause, is not itself an atypical and significant hardship.”); see also Freitas
v. Ault, 109F.3d 1335,1337-38 (8th Cir. 1997) (finding that a prisoner had no
constitutionally protected liberty interest in remaining in less restrictive prison
environment); Kennedy v. Blankenship, 100 F.3d 640, 642-43 n.2 (8th Cir. 1996)
(statingthat punitive isolation is not an atypical and significant deprivation). Thus,
to the extent the plaintiff is claiming the 17-day room restriction violated his due
process rights, this claim must be dismissed.
Similarly, to the extent Plaintiff complains that the loss of his lead porter job
violated his due process rights, his claim fails. The Eighth Circuit has long held
that the loss of a prison job, the compensation derived from that job, or the
expectation of keeping a particular prison job does not implicate any property or
liberty interest entitled to due process protection. See Flittie v. Solem, 827 F.2d
276,279 (8th Cir. 1987) (“[Ijnmates have no constitutional right tobe assigned to
a particular job.”); Lyon v. Farrier, 727 F.2d 766, 769 (8th Cir. 1984) (concluding
an inmate has no constitutional right to a prison job nor to retain a particular j ob);
Peckv. Hoff, 660F.2d371, 373 (8th Cir. 1981) (determining inmate had no legal
entitlement or right to particular job assignment). See also Newsom v. Norris, 888
F.2d 371, 374 (6th Cir.1989); Garza v. Miller, 688 F.2d480,485 (7th Cir. 1982).
Moreover, the loss of a prison job is not an atypical or significant hardship in
8

Case: 8:18-cv-00410-RGK-PRSE

Document#: 28-1
of 17

Date Filed: 10/01/2020

Page 9

relation to the ordinary incidents of prison life. See Callender, 88 F.3d at 670
(reversing a judgment in favor of an inmate for denial of procedural and
substantive due process because the inmate had no constitutionally protected
liberty interest in a work release program, and revocation of his work release status
did not impose an atypical and significant hardship upon him in relation to the
ordinary incidents of prison life); see also Bulger v. United States Bureau of
Prisons, 65 F..3d48,49-50 (5th Cir. 1995) (holding inmate’s termination from his
UNICOR job and reassignment to a non-UNICOR job did not impose an atypical
and significant hardship on him in relation to the ordinary incidents of prison life).
Accordingly, to the extent Plaintiff is attempting to allege a due process
claim arising from the loss of his lead porter job, this claim must be dismissed.
Plaintiff s Amended Complaint, therefore, fails to allege any due process claim
' upon which relief may be granted.
D. Eighth Amendment
Plaintiff also alleges that the deprivation of privileges without proper
f disciplinary procedures violated the Eighth Amendment prohibition against cruel
and unusual punishment. Though unclear from Plaintiff s allegations, Plaintiffmay
be claiming that the imposition of the 17-day room restriction and therelated loss
of privileges such as exercise, visitingthe library and other inmates, and his lead
porter job violated his Eighth Amendment rights.
“The Constitution ... does not mandate comfortable prisons, and only those
deprivations denying the minimal civilized measure of life’s necessities are
sufficiently grave to form the basis of an Eighth Amendment violation.” Wilson v.
Seiter, 501 U.S. 294, 298(1991) (internal citations and quotation marks omitted).
Administrative segregation “is not necessarily unconstitutional [under the Eighth
Amendment], but it maybe, depending on the duration of the confinement and the

9

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 10

conditions thereof.” Hutto v: Finney, 437 U.S. 678, 685-86 (1978) (internal
quotations omitted).
To establish that a prisoner’s conditions of confinement violate the
Eighth Amendment, the prisoner must show that (1) the alleged
deprivation is, “objectively, sufficiently serious,” resulting “in the
denial ofthe minimal civilized measure of life’s necessities,” and (2)
that the prison officials were deliberately indifferentto “an excessive
risk to inmate health or safety,” meaning that the officials actually
knew of and disregarded the risk.”
Williams v. Delo, 49 F.3d 442,445 (8th Cir. 1995) (quoting Farmer v. Brennan,
511 U.S. 825, 834, 837(1994)).

V-:

Here, Plaintiffs relatively brief time on level D room restriction and the
concomitant loss of privileges he sustained fall far short of suggesting the denial of
the minimal civilized measure of life’s necessities. As Plaintiff admits, the loss of
privileges, with the exception of his lead porter job, was only temporary, and he
does not allege a denial of “reasonably adequate sanitation, personal hygiene, and
laundry privileges, particularly over a lengthy course oftime.”Howard v. Adkison,
887 F.2d 134,137 (8th Cir. 1989). Thus, Plaintiff’s claim that his 17-day room
restriction and loss of privileges violated the Eighth Amendment must be
dismissed.
To the extent Plaintiff may be claiming that the deprivation of privileges for
purposes unrelated to treatment of his mental illness violated the Eighth
Amendment, such claim also fails. “[Deliberate indifference to serious medical
needs of prisoners constitutes the ‘unnecessary and wanton infliction of pain’
proscribed by the Eighth Amendment. ” Estelle v. Gamble, 429 U.S. 97,104(1976)
(internal citation omitted). To prevail on an Eighth Amendment deliberate
indifference claim, Plaintiff must demonstrate that (1) he suffered from objectively
serious medical needs, and (2) Defendants knew of, but deliberately disregarded,
10

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1

Date Filed: 10/01/2020

Page 11

of 17

those needs. See Gibson v. Weber, 433 F.3d 642, 646 (8th Cir. 2006) (Eighth
Amendment claim based on inadequate medical attention requires proof that
officials knew about excessive risks to inmate’shealthbut disregarded them and
that their unconstitutional actions in fact caused inmate’s injuries); Jolly v.
Knudsen, 205 F.3d 1094,1096 (8th Cir. 2000). Here, Plaintiff merely disagrees
with Defendants’ imposition oftherapeutic restrictions for punitive purposes rather
than for treatment purposes. Plaintiff does not claim that Defendants delayed or
denied him any medical care or treatment for his mental illness and, therefore, h as
not alleged an Eighth Amendment violation. See Orr, 610 F.3d at 1034-35
(affirming dismissal of prisoner’s Eighth Amendment claim where prisoner did not
claim prison officials delayed or denied medical care).
E. Equal Protection

r- 7
j

ii

Plaintiff also alleges Defendants violated his equal protection rights by
depriving him of privileges available to general population inmates for the purpose
of punishment without adhering to proper disciplinary procedures. Liberally
construed, Plaintiff further asserts that the MHU Multi-Disciplinary Team violated
equal protection by failing to consistently discipline or place restrictions on each
inmate involved in the same alleged misconduct. (Filing 25 at CM/ECF p. 8, (fl 33.)
Specifically, Plaintiff alleges the other inmate with whom Plaintiff allegedly
passed and received unauthorized canteen items was not placed on level D like
Plaintiffwas or any other restriction. {Id. at CM/ECFp. 9,^137.)
The Fourteenth Amendment provides that “[n]o State shall.. . deny to any
person within its jurisdiction the equal protection of the laws.”U.S. Const, amend.
XIV, § 1. The government is requiredto treat similarly situated people alike, City
of Cleburne v. Cleburne Living Ctr., Inc., 473 U.S. 432, 439 (1985), and this
requirement extends to prison inmates. Turner v. Safley, 482 U.S. 78, 84(1987).

11

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 12

To prevail on an equal protection claim, an inmate plaintiff must allege he
was treated differently than a similarly situated class of inmates, that the different
treatment burdened one of his fundamental rights, and that thedifferent treatment
bears no rational relation to any legitimate penal interest. Murphy v. Missouri Dept.
ofCorr., 372 F. 3d 979, 984 (8th Cir. 2004).3 Taking the allegations of Plaintiffs
Amended Complaint as true, Plaintiff has failed to allege that his equal protection
rights were violated. Plaintiff does not allege that he was similarly situated to
general population inmates, and the fact that inmates in the MHU sign and
acknowledge the terms of the MHU program prior to admittance undermines any
inference that MHU and general population inmates are similarly situated. See
Muick v. Reno, 83 F. App’x 851, 853 (8th Cir. 2003) (per curiam) (federal
• prisoner’s placement in a special housing unit and denial of the same privileges as
general-population inmates did not support federal prisoner’s equal-protection
Bivens claims, where prisoner was not similarly situated to the general-population
' inmates and thus could not show he was treated differently from similarly situated
class of inmates). Nor does Plaintiff allege that he was similarly situatedto the
inmate who was also allegedly engaging in the same misconduct as Plaintiff; that
is, the other inmate is not alleged to be an inmate within the MHU. Even if it could
* be reasonably inferred that the other inmate is similarly situated to Plaintiff,
‘ Plaintiff has not alleged that the different treatment burdened one of his
fundamental rights.
F. 42 U.S.C. § 1985
Citing 42 U.S.C. § 1985, Plaintiff alleges that Defendants conspired to
deprive him of his civil rights. (Filing 25 at CM/ECF p. 2, T 4.) However, 42
U.S.C. § 1985(1) and (2) (interference with performance of official duty;

3 To the extent Plaintiff’s allegations could be construed as asserting mentally ill
or mentally disabled inmates are a suspect class, such assertion fails. See More v. Farrier,
984 F.2d 269, 271 (8th Cir. 1993) (physically disabled inmates not a suspect class (citing
City of Cleburne, 473 U.S. at 441-^43)).
12

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 13

obstruction of justice and intimidation of party, witness or juror) have no
application to Plaintiff, and Plaintiff fails to state a claim under 42 U.S.C. §
1985(3). As the Eighth Circuit Court of Appeals has explained:
In order to prove the existence of a civil rights conspiracy under §
1985(3), the [plaintiff] must prove: (1) that the defendants did
“conspire,” (2) “for the purpose of depriving, either directly or
indirectly, any person or class of persons of equal protection of the
laws, or equal privileges and immunities under the laws,” (3) that one
or more of the conspirators did, or caused to be done, “any act in
furtherance of the object of the conspiracy,” and (4) that another
person was “injured in his person or property or deprived of having
and exercising any right or privilege of a citizen of the United States.”
42 U.S.C. § 1985(3).... “The ‘purpose’ element of the conspiracy
requires that the plaintiff prove a class-based ‘invidiously
discriminatory animus.’”

■

Larson ex rel. Larson v. Miller, 76 F.3d 1446, 1454 (8th Cir. 1996) (en banc)
(quotingC/Zy of Omaha Employees Betterment Ass'nv. City of Omaha, 883 F.2d
650, 652 (8th Cir. 1989)). In addition, Plaintiff “must allege that an independent
federal right has been infringed. Section 1985 is a statute which provides a remedy,
but it grants no substantive stand-alone rights. The source of the right or laws
violated must be found elsewhere.”Federer v. Gephardt, 363 F. 3d 754, 758 (8th
Cir. 2004).
While Plaintiff has alleged a class-based discriminatory animus based on
mental illness or disability, Plaintiff’s conspiracy claims fail for two reasons. First,
as discussed above, the independent federal rights Plaintiff claims were infringed
were his rights to free speech under the First Amendment, to be free from cruel and
unusual punishment under the Eighth Amendment, andtodue process and equal
protection under the Fourteenth Amendment. However, Plaintiff has not stated a
claim upon which relief may be granted under any of those constitutional
provisions. Accordingly, Plaintiff’s § 1985(3) claim cannot proceed pursuantto an
alleged violation of Plaintiffs rights under the First, Eighth, or Fourteenth
13

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 14

Amendment. Second, Plaintiff s conclusory allegations that a con spiracy existed
between Defendants are insufficient to state a claim for relief. See Kelly v. City of
Omaha, 813 F.3d 1070, 1077-78 (8th Cir. 2016) (“In order to state a claim for
conspiracy under § 1985, a plaintiff must allege with particularity and specifically
demonstrate with material facts that the defendants reached an agreement. This
standard requires that allegations of a conspiracy [be] pleaded with sufficient
specificity and factual support to suggest a meeting of the minds directed t o ward
an unconstitutional action.” (internal quotation marks and citations omitted));
Cooper v. Delo, 997 F.2d 376, 377 (8th Cir. 1993) (per curium) (complaintsubject
to dismissal if allegations of conspiracy are inadequate; plaintiff must allege fact s
suggesting mutual understanding bet ween defendants or meeting of minds).
Accordingly, Plaintiff has not alleged any claims on wh ich relief m ay be
■’ granted pursuant to 42 U.S.C. § 1985(3), andsuch claims will be dismissed.
G. ADA
Liberally construed, Plaintiffs Complaint asserts a claim under the ADA,
. which is divided into three parts:
Title I prohibits employment discrimination, 42 U.S.C. § 12112, Title
II prohibits discrimination in the services of public entities, 42 U.S.C.
§ 12132, and Title III prohibits discrimination by public
accommodations involved in interstate commerce such as hotels,
restaurants, and privately operated transportation services, 42 U. S. C.
§§ 12182,12184.
Gormanv. Bartch, 152F.3d907, 911 (8th Cir. 1998).
Title II of the ADA applies to prisons, and it provides that “no qualified
individual with a disability shall, by reason of such disability, be excluded from
participation in or be denied the benefits of the services, programs, or activities of
14

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 15

a public entity, or be subjected to discrimination by any such entity.” 42 U.S.C. §
12132; United States v. Georgia, 546 U.S. 151,154 (2006) (a “public entity” under
§ 12132 includes state prisons); Masonv. Corr. Med. Servs., Inc., 559 F.3d 880,
886 (8th Cir. 2009) (“[Rjecreational activities,medical services, and educational
and vocational programs at state prisons are benefits within the meaning of Title
II.” (internal quotation marks omitted)).

■U

*

Plaintiff sues eleven of the twelve Defendants in their individual capacities,
but Title II ADA claims may only be brought against the Defendant corrections
officials and employees in their official capacities. See Dinkins v. Correctional
Med. Svs., 743 F.3d 633 (8th Cir. 2014) (correctional officers could not be sued in
their individual capacities under the ADA); A Isb rookv. City of Maumelle ,\%AV. 3d
999,1005 n.8 (8th Cir. 1999) (en banc) (explaining that Title II provides disabled
individuals redress for discrimination by a “public entity,” which does not include
individuals).
To the extent Plaintiff alleges an official capacity claim against Defendant
Robin Church, a member of the MHU Multi-Disciplinary Team, Plaintiff s claim s
for damages under the ADA are barred by sovereign immunity. See Alsbrook v.
City of Maumelle, 184 F.3d 999,1010 (8th Cir. 1999) (en banc) (holding that Title
II of the ADA, governing discrimination by public entities, did not validly abrogate
States’ Eleventh Amendment immunity from suit by private individuals in federal
court). Whileprospective injunctive relief against stateofficials in their official
capacities is permitted under the ADA, see Randolphv. Rodgers, 253 F.3d 342,
348 (8th Cir. 2001) (permitting ADA claims for prospective injunctive relief
against state official sued in official capacity), Plaintiff has abandoned his claims
for prospective injunctive relief, and such claims- would be moot given that
Plaintiff is no longer in the MHU. See Section III.A. supra. Thus, even if Plaintiff

15

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 16

had alleged a plausible claim underthe ADA,4 he does not seek any relief that may
be granted under the act.
IV. CONCLUSION
Plaintiffs Amended Complaint fails to state a plausible claim for relief
against the Defendants under the First, Eighth, or Fourteenth Amendments.
Plaintiff has also failed to state a claim under 42 U.S.C. § 1985 or the ADA.
Accordingly, the court will dismissPlain tiffs Amended Complaint for failure to
state a claim upon which relief may be granted without leave to amend as the court
concludes that further amendment would be futile.
IT IS THEREFORE ORDERED that:
1.
Plaintiff s motion to withdrawhis Rule 60(b) motion (filing 27) is
granted. The clerk of the court is directed to terminate the motion event for Filing
26.
2.
This matter is dismissed for failure to state a claim upon which relief
may be granted.
3.

The court will enterjudgment by a separate document.

4 In order to sufficiently allege a Title II ADA claim, Plaintiff must allege “(1) that
he is a qualified individual with a disability; (2) that he was excluded from participation
in or denied the benefits of the jail’s services, programs, or activities, or was otherwise
subjected to discrimination by the jail; and (3) that such exclusion, denial of benefits, or
other discrimination was by reason of his disability.” Baribeau v. City of Minneapolis,
596 F.3d 465, 484 (8th Cir. 2010); see also Folkerts v. City ofWaverly, 707 F.3d 975,
983 (8th Cir. 2013); Randolph v. Rodgers, 170 F.3d 850, 858 (8th Cir. 1999). Here,
Plaintiff fails to satisfy the first element as he alleges absolutely no facts to support a
finding that he is a qualified individual with a disability.
16

Case: 8:18-cv-00410-RGK-PRSE

Document #: 28-1
of 17

Date Filed: 10/01/2020

Page 17

Dated this 1st day of October, 2020.
BY THE COURT:

Richard G. Kopf
Senior United States District Judge

17

APPENDIX C

Case: 8:18-cv-00410-RGK-PRSE

Document #: 14-1

Date Filed: 06/10/2019

Page 1 of 8 ------~-:.

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
RAY SEAN BARBER
Plaintiff.

8:18CV410

vs.
SCOTT FRAKES, TAGGART BOYD,
TED HILL, jMIKI HOLLISTER,
KRISTINA Mil.BURN, NATE
SHWAB, DR. MARK LUKIN, DR.
: MEGAN FORD, BETTY GERGEN,
JACQUE GOODING, AMY REZNEY,
and ROBIN CHURCH,

MEMORANDUM
AND ORDER

Defendants.
Plaintiff filed a Complaint on August 27, 2018. (Filing No. I.)1 He has been
given leave to proceed in forma pauperis. (Filing No. 9.) The court now conducts
an initial review of Plaintiffs Complaint to determine whether summary dismissal
is appropriate under 28 U.S.C. §§ 1915(e) and 1915A.
L SUMMARY OF COMPLAINT
Plaintiff is an inmate in the custody of the Nebraska Department of
Correctional Services (“NDCS”) and confined at the Tecumseh State Correctional
Institution (“TSCI”). Plaintiff brings this action pursuant to 42 U.S.C. §§ 1983 and
1985 against Scott Frakes, Director of the NDCS; Taggart Boyd, the Warden of the
Lincoln Correctional Center (“LCC”); and 10 employees of the LCC for alleged
violations of his constitutional rights under the First, Eighth, and Fourteenth
The Complaint was signed by Plaintiff and another prisoner, Guy Collins. (Filing No. 1
at CM/EC.F p. 13.) Collins was dismissed as a plaintiff in this action after he failed to advise the
court in writing whether he wished to “opt out" or continue with the group litigation. (Filing No.
13.)

Case: 8:18-cv-00410-RGK-PRSE

Document #: 14-1

Date Filed: 06/10/2019

Page 2 of 8

Amendments. Liberally construed, Plaintiff also alleges a violation of the
Americans with Disabilities Act (“ADA”), 42 U.S.C. §§ 12101-12213. (Filing No.
1 at CM/ECF pp. 3. 11.)
Plaintiff alleges he has been diagnosed with a serious mental illness and w as
housed in the Menial Health Unit (“Mill!”) at the LCC prior to being confined at
the TSCI. (Id. at CM/ECF p. 1.) Plaintiff alleges that the Defendants deprive
inmates in the MI 1U of activities and privileges without affording an inmate a
hearing or any of the procedures required by Title 68 'of the Nebraska
Administrative Code, which sets forth the' rules for regulating an inmate’s
behavior, and additional depriv ations of privileges arc imposed upon admission
into the Ml 11. “Levels Program” “for reasons not directly having to do with the
treatment of a particular mental illness.” (Id. at CM/ECF pp. 2, 7.) Inmates must
sign a consent form and a contract agreeing to the terms of the M III' program prior
to entering the MHU and are informed that inmates “can be placed on a
therap[e]utic restriction.” (Id. at CM/ECF p. 7.) The Levels Program is
administered by the MHU Multi-Disciplinary Team which is made up of the 10
LCC employees Plaintiff named as Defendants.
On June 1, 2018, Plaintiff alleges he was placed on “level D, which is a
restriction that is similar to the sanction ‘room restriction’ set forth in Title 68,” for
17 days without being afforded a hearing based on reports that he had engaged in
passing and receiving canteen times with other inmates. (Id. at CM/ECF pp. 8-9.)
As a result of being placed on level D, Plaintiff lost his job as the lead porter, on the
MHU. (Id: at CM/ECF p. 9.) The other inmate with whom Plaintiff allegedly
exchanged canteen items did not receive any type of restriction for his alleged
misconduct. (.ld_.)
Plaintiff alleges the MITU Multi-Disciplinary Team’s enforcement of the
Levels Program violated the First, Eighth, and Fourteenth Amendments, and that
“[a]ll Defendants, by agreeing to the enforcement of the levels program, . . . did
conspire, for the purpose of depriving . . . Plaintiffs and others similarly situated of
2

Case: 8:18-cv-00410-RGK-PRSE

Document #: 14-1

Date Filed: 06/10/2019

Page 3 of 8

the equal protection of the laws, or of equal privileges or immunities under the
laws." (Id. at CM/ECF pp. 11-12.) For relief, Plaintiff seeks a declaration that the
Levels Program is unconstitutional, injunctive relief enjoining the continuation of
the MIII. Levels Program, and monetary damages. (Id. at CM/ECF p. 12.)
II. APPLICABLE LEGAL STANDARDS ON INITIAL REVIEW
The court is required to review prisoner and in-forma pauperis complaints
seeking relief against a governmental entity or an officer or employee of a
governmental entity to determine whether summary dismissal is appropriate. See
28 U.S.C. §§ 1915(e) and 1915A. The court must dismiss a complaint or any
portion of it that states a frivolous or malicious claim, that fails to state a claim
upon which relief may be granted, or that seeks monetary relief from a defendant
who is immune from such relief. 28 U.S.C. § 1915(e)(2)(B); 28 U.S.C. §
1915A(b).
Pro se plaintiffs must set forth enough factual allegations to “nudge[] their
claims across the line from conceivable to plausible,” or “their complaint must be
dismissed.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 569-70 (2007); see also
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“A claim has facial plausibility when
the plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.”).
“The essential function of a complaint under the Federal Rules of Civil
Procedure is to give the opposing party ‘fair notice of the nature and basis or
grounds for a claim, and a general indication of the type of litigation involved.’”
Topchian v. JPMorgan Chase Bank, N.A., 760 F.3d 843, 848 (8th Cir. 2014)
(quoting Hopkins v. Saunders, 199 F.3d 968, 973 (8th Cir. 1999)). However, “[a]
pro se. complaint must be liberally construed, and pro se litigants are held to a
lesser pleading standard than other parties.” Topchian, 760 F.3d at 849 (internal
quotation marks and citations omitted).

3

Case: 8:18-cv-00410-RGK-PRSE

Document#: 14-1

Date Filed: 06/10/2019

Page 4 of 8

Liberally construed. Plaintiff here alleges federal constitutional claims. To
state a claim under 42 U.S.C. § 1983, a plaintiff must allege a violation of rights
protected by the United States Constitution or created by federal statute and also
must show that the alleged deprivation was caused by conduct of a person acting
under color of state law. West v. Atkins, 487 U.S. 42, 48 (1988); Buckley v. Bcniow,
997 F.2d 494, 495 (8th Cir. 1993).
III. DISCUSSION
A. Sovereign Immunity
Plaintiff has sued brakes. Boyd, and the 10 LCC employees for monetary
damages and declaratory and injunctive relief. Because Plaintiff did not specify the
capacity in which these various NDCS officials and employees are sued, the court
presumes that they are sued in their official capacities only. See, e.g., Johnson v.
Outboard Marine Corp., 172 F.3d 531, 535 (8th Cir. 1999) (“This court has held
that, in order to sue a public official in his or her individual capacity, a plaintiff
must expressly and unambiguously state so in the pleadings, otherwise, it will be
assumed that the defendant is sued only in his or her official capacity.”). Sovereign
immunity prevents the court from exercising jurisdiction over claims for damages
against Defendants in their official capacities.
The Eleventh Amendment bars claims for damages by private parties against
a state. See, e.g., Egerdahl v. Hibbing Cmty. Coll, 72 F.3d 615, 618-19 (8th Cir.
1995); Dover Elevator Co. v. Arkansas State Univ., 64 F.3d 442, 446-47 (8th Cir.
1995). Any award of retroactive monetary relief payable by the state, including for
back pay or damages, is proscribed by the Eleventh Amendment absent a waiver of
immunity by the state or an override of immunity by Congress. See, e.g., Dover
Elevator Co., 64 F.3d at 444; Novels v. Hanlon, 656 F.2d 372, 377-78 (8th Cir.
1981). A state’s sovereign immunity extends to public officials sued in their
official capacities as “[a] suit against a public employee in his or her official
capacity is merely a suit against the public employer.” Johnson, 172 F.3d at 535.
4

— Case: 8:18-cv-00410-RGK-PRSE

Document #: 14-1

Date Filed: 06/10/2019

Page 5 of 8

An exception to this immunity was recognized by the Supreme Court in Ex Parle
Young, 209 U.S. 123 (1908). which permits prospective injunctive relief against
state officials for ongoing federal law violations. This exception does not apply to
cases involving requests for purely retroactive relief. Green v. Mansour, 474 U.S.
64 (1985).
Plaintiffs claims against Defendants in their official capacities arc claims
against the State of Nebraska. There is nothing in the record before the court
showing that the State of Nebraska waived, or that Congress overrode, sovereign
immunity in this matter. Therefore, this court lacks jurisdiction over Plaintiffs
damages claims against Defendants in their official capacities.
B. Claims for Declaratory and Injunctive Relief
Sovereign immunity does not bar Plaintiffs claims for declaratory and
prospective injunctive relief. However, the fact that Plaintiff is no longer
incarcerated at the LCC or subject to the MHU Levels Program moots his claims
for declaratory and injunctive relief.
Article III of the Constitution limits federal court jurisdiction to “cases” and
“controversies.” A case becomes “moot,” thus ending jurisdiction, “when the
issues presented are no longer ‘live5 or the parties lack a legally cognizable
■ interest.”

United States Parole Comm’n v. Geraghty, 445 U.S. 388, 396 (1980)

(quoting Powell v, McCormack, 395 U.S. 486, 496 (1969)) (internal quotation
marks omitted). Injunctive relief “‘is unavailable absent a showing of irreparable
injury, a requirement that cannot be met where there is no showing of any real or
immediate threat that the plaintiff will be wronged again.’” Martin v. Sargent, 780
F.2d 1334, 1337 (8th Cir. 1985) (quoting City of Los Angeles v. Lyons, 461 U.S.
95, 111, (1983)). Likewise, to warrant declaratory relief, “the injury still must be.
clearly impending.” Vorbeck v. Schnicker, 660 F.2d 1260, 1265 (8th Cir. 1981).

5

Case: 8:18-c»y-00410-RGK-PRSE

%

Document #;.14-1

Date Filed: 06/10/2019

Page 6 of 8

Here, Plaintiff is confined at the TSCI and is no longer subject to the LCC
MHU Levels Program. Thus, his claims for injunctive relief are moot, and he lacks
standing to seek a declaration as to the constitutionality of the Levels Program.
Martin, 780 F.2d at 1337 (concluding that claim for injunctive relief against
warden was moot and prisoner lacked standing to seek declaratory relief because
prisoner was transferred to another prison).
C. ADA Claim
In his Complaint, Plaintiff cites to 42 U.S.C. § 12101 of the ADA as one of
the;bases for his claims. Plaintiffs purported claim under the ADA appears to be
that he is an individual with a disability (a serious mental illness) who is excluded
from certain activities or privileges allowed for general population inmates because
Defendants impose more restrictive terms on inmates in the MHU. Besides the
obvious failure to plausibly allege the elements of an ADA claim,2 the bar of
sovereign immunity applies equally to Plaintiffs claims for damages under the
ADA. .Sec Alsbrook v. City of Maumelle, 184 F.3d 999, 1010 (8th Cir. 1999) (en
banc) (holding that Title II of the ADA, governing discrimination by public
entities, did not validly abrogate States’ Eleventh Amendment immunity from suit
by-private individuals in federal court). While prospective injunctive relief against
state officials in their official capacities, is permitted under the ADA, Randolph v.
Rodgers, 253 F.3d 342, 348 (8th Cir. 2001) (permitting ADA claims for
prospective injunctive relief against state official sued in official capacity), such
claims suffer from the same mootness defect discussed above.

2 a

To state a prima facie claim under the ADA, a plaintiff must show: 1) he is a person
with a disability as defined by statute; 2) he is otherwise qualified for the benefit in question; and
3) he was excluded from the benefit due to discrimination based upon disability.” Randolph v.
Rodgers, 170 F.3d 850, 858 (8th Cir. 1999). A person is disabled under the ADA if he has “a
physical or mental impairment that substantially limits one or more major life activities.” 42
U.S.C. § 12102(1)(A). Here, Plaintiff alleges absolutely no facts to support a finding of
disability.

6

‘

Case: 8:18-cv-00410-RGK-PRSE

Document #: 14-1

Date Filed: 06/10/2019

Page 7 of 8

IV. CONCLUSION
Plaintiffs Complaint fails to state a plausible claim for relief against the
Defendants in their official capacities because sovereign immunity bars his claims
for damages, his claims for injunctive relief arc moot, and he lacks standing to seek
declaratory relief. On the court’s own motion, and out of an abundance of caution,
Plaintiff shall have 30 days to file an amended Complaint that states a plausible
claim for relief against Defendants in their individual capacities.
IT IS THEREFORE ORDERED that:
1.

Plaintiffs claims for injunctive and declaratory relief are dismissed as

moot.
Plaintiffs claims for damages against Defendants in their official
capacities are dismissed as barred by sovereign immunity.
2.

Plaintiff shall have until July 10, 2019, to file an amended complaint
that states a plausible claim for relief against Defendants in their individual
capacities. Failure to file an amended complaint within the time specified by the
court will result in the court dismissing this case without further notice to Plaintiff.
3.

In the event that Plaintiff files an amended complaint, Plaintiff shall
restate the allegations of the current Complaint (filing no. 1) and any new
allegations. Failure to consolidate all claims into one document may result in the
abandonment of claims. Plaintiff is warned that an amended complaint will
supersede, not supplement, his Complaint.
4.

The court reserves the right to conduct further review of Plaintiff s
5.
claims pursuant to 28 U.S.C. § 1915(e) in the event he files an amended complaint.

7

Case: 8:18-cv-00410-RGK-PRSE

Document #: 14-1

Date Filed: 06/10/2019

Page 8 of 8

The clerk of the court is directed to set a pro se case management
6.
deadline using the following text: July 10,2019: check for amended complaint.
Dated this 10th day of June. 2019
BY THE COURT:
s/ Richard G. Kopf
Senior United States District Judge

8

APPENDIX D

V
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3406
RaySean D. Barber
Appellant
Guy Collins
v.
Scott Frakes, et al.
Appellees

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:18-cv-00410-RGK)
ORDER
The petition for rehearing by the panel is denied.
March 17, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX E

42 U.S.C.A. §1983
Every person who, under color of any statute, ordinance, regglation, custom,
or usage, of any State or Territory of the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any rights, privileges,
or immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding
for redress, except that in any action brought against a judicial officer for
an act or omission taken in such officer's judicial capacity, injunctive
relief shall not be granted unless a declaratory decree was violated or declar­
atory relief was unavailable. For the purposes of this section, any Act of
Congress applicable exclusively to the District of Columbia shall be consi­
dered to be a statute of the District of Columbia.

IN THE UNITED STATES SUPREME COURT
RAYSEAN BARBER,

)

Petitioner,

)

MOTION TO PROCEED WITHOUT COMPLAIANCE

v.

)

WITH SUPREME COURT RULE 29

SCOTT FRAKES, Sf al • >

)

Respondents.

)

GOMES NOW, Petitioner, pro se, and hereby moves this Honorable Court
for an order allowing him to proceed without compliance with Rule 29;
Petitioner further argues:

1.)

That he is an inmate who proceeded in forma pauperis in the district

court;

2.)

That, therefore*the UwS^ Marshal services would have to provide ser-^

vice of process upon the defendants;

3.)

that the district court dismissed this action without serving the de­

fendants; and

4.

that, therefore, Petitioner does not have the addresses of the Respond-

ents to properly comply with rule 29.

LEGAL ARGUMENT
Pro §e litigants proceeding in forma pauperis are entitled to rely on
service by the United States Marshals Service. Wright v. First Student, Inc • »
710 F.3d 782, 783 (8th, Cir. 2013). Pursuant to 28 U.S.C. §1915(d), in an in

1.

forma pauperis case, "[t]he officers of the court shall issue and serve all
process, and perform all duties in such cases." See Moore v. Jackson, 123
F.3d 1082, 1085 (8th Cir. 1997) (language in §1915(d) is compulsory); Fed. R.
Civ. P. 4(c)(3) (court must order that service be made by United States Marsh­
al if plaintiff is authorized to proceed in forma pauperis under 28 U.S.C.
§1915). See, e.g., Beyer v. Pulaski County Jail, 589 Fed. Appfe: 798 (8th
Cir. 2014) (unpublished) (vacating district court order of dismissal for fail­
ure to prosecute and directing district court to order the Mardljal to seek
defendant's last known contact information where plaintiff contended that the
jail would have information for defendant's whereabouts); Graham v. Satkoski,
51 F.3d 710i 713 (7th CCir. 1995) (when court instructs Marshal to serve
papers for prisoner, prisoner need furnish no more than information necessary
to identify defendant; Marshal should be able to ascertain defendant's current
address). With respect to prisoner actions, it is believed that "use of marsh­
als to effect service alleviates two concerns thht pervade prisoner litigation,
state or federal: 1) the security risks inherent in providing the addresses of
prison emplyees to prisoners; and 2) the reality thht prisoners often get the
’"runaround' when they attempt to obtain information through governmental chan­
nels and needless attendant delays in litigating a case result." Id.
Given the above Petitioner can not be expected to be able to comply
with Rule 29.

WHEREFORE, Petitioner prays that this Court will allow him to proceed
without complying with Rule 29.

2.

Respectively Submitted:

s'
RAYSEAN BARBER
P.O. Box 22800
Lincoln, NE 68542
Petitioner, Pro Se.

3.

0y>
/

No.

—

SUPREME COURT OF THE UNITED STATES

' Of

' °c.

OCTOBER TERM 2018
MATTHEW DESMOND BROWNE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANTHONY R. GALLAGHER
Federal Defender for the District of Montana
*JOHN RHODES
Assistant Federal Defender
Federal Defenders of Montana
125 Bank St., Ste. 710
Missoula, Montana 59802-9380
(406)721-6749
* Counsel of Record
SUBMITTED: August 15, 2018

i

■r

QUESTION PRESENTED
Is the Fourth Amendment violated when a warrantless
seizure is carried out based on an anonymous tip that
correctly identifies a vehicle and a driver’s first name but
incorrectly predicts the location of the vehicle by ninety
miles and one to two days?

ii

Table of Contents
QUESTION PRESENTED

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

v

JURISDICTION

2

OPINION BELOW

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2
2

- STATEMENTOF THE CASE
PRIOR PROCEEDINGS

3

FACTUAL BACKGROUND

5

REASONS FOR GRANTING THE PETITION

10

A. The district court ruled the traffic stop ended and the criminal investigation
began when Holzer exited his patrol car......................................................... 10
B. The anonymous tip did not provide sufficient reasonable suspicion

11

1. The tip was anonymous

11

2. Anonymous tips demonstrate reliability through predictions

12

CONCLUSION

18
iii

APPENDICES
Appendix A: United States v. Browne, 111 Fed. Appx. 751 (9th Cir. 2018)
Appendix B: Order of 9th Circuit Court of Appeals denying rehearing
Appendix C: Fourth Amendment of the United States Constitution
Appendix D: United States v. Browne, 219 F.Supp.3d 1030 (D. Mont. 2016)

IV

TABLE OF AUTHORITIES
Cases
Adams v. Williams,
407 U.S. 143 (1972)

16

Alabama v. White,
496 U.S. 325 (1990)

3, 12-17

Florida v. J.L.,
529 U.S. 266 (2000)

3, 12, 15-18

Illinois v. Gates,
462 U.S. 213 (1983)

12, 13

Ornelas v. United States,
517 U.S. 690(1996)

11

Rodriguez v. United States,
135 S.Ct. 1609 (2015)

11

Terry v. Ohio,
.. 392 U.S. 1 (1968)

16

United States v. Browne,
219 F.Supp.3d 1030 (D. Mont 2016)
United States v. Browne,
111 Fed. Appx. 751 (9th Cir. 2018)

10,11

2, 10, 11, 18

United States v. Morales,
252 F.3d 1070 (9th Cir. 2001)

11-12

United States v. Thomas,
211 F.3d 1186 (9th Cir. 2000)

12

Constitutional Provisions
ii, 10-18

Fourth Amendment
Federal Statutes

4

18 U.S.C. § 2
21 U.S.C. § 841(a)(1)

2-4

21 U.S.C. § 841(b)(1)

2,4

21 U.S.C. § 846

2,4

vi

JURISDICTION
The court of appeals issued its opinion denying Mr. Browne’s request for
appellate relief on April 5, 2018. Appendix A. The court of appeals issued its order
denying rehearing on May 17, 2018. Appendix B. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).
OPINION BELOW
The opinion of the United States Court of Appeals for the Ninth Circuit is
reported at United States v. Browne, 111 Fed. Appx. 751 (9th Cir. 2018). Appendix
A.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the Fourth Amendment to the Constitution of the United
States. Appendix C.
STATEMENT OF THE CASE
Mr. Browne was arrested following a traffic stop and search of his vehicle on
June 10, 2016. He was indicted on one count of conspiracy to possess with intent to
distribute controlled substances, in violation of 21 U.S.C. § 846, and two counts of
possession with intent to distribute cocaine in violation of 21 U.S.C. §§ 841(a)(1)
and (b)(1)(A).
Mr. Browne filed a motion in district court to suppress the evidence seized
2

following the traffic stop. The district court denied the motion, and Mr. Browne
ultimately pled guilty to count two of the indictment, charging possession with intent
to distribute cocaine. Pursuant to the plea agreement, Mr. Browne reserved the right
to appeal the district court’s denial of his suppression motion.
The seizure of Mr. Browne and his vehicle was based on an anonymous tip
received by law enforcement. While the information in the tip accurately described
Mr. Browne’s first name and his vehicle, it did not accurately predict his alleged
illegal activities. Such a seizure violates this Court’s guidance in Alabama v. White
and Florida v. J.L.
Mr. Browne requests this Court grant his petition for certiorari and review his
case or vacate the judgment and remand for further proceedings.
PRIOR PROCEEDINGS
On June 8, 2016, Mr. Browne was arrested in Libby, Montana, following a
search of his truck which uncovered 58 kilograms of cocaine. On June 10, 2016,
Mr. Browne made his initial appearance in the District of Montana. A complaint
charged one count of possession with intent to distribute cocaine, in violation of 21
U.S.C. § 841(a)(1). An affidavit by Special Agent Troy Capser of the Department
of Homeland Security underwrote the complaint.

3

On June 21, 2016, the government filed an indictment charging Mr. Browne,
Preston Lahmer, and Kristopher Pfeifer. It charged Mr. Browne with one count
conspiracy to possess controlled substances with intent to distribute in violation of
21 U.S.C. § 846, and two counts of possession with intent to distribute cocaine in
violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(A). The government charged the co­
defendants with one count conspiracy to possess controlled substances with intent
to distribute in violation of 21 U.S.C. § 846, and one count aiding and abetting
possession with intent to distribute a Schedule 1 controlled substance pursuant to 21
. U.S.C. §§ 841(a)(1) and (b)(1)(C) and 18 U.S.C. § 2.
Mr. Browne was arraigned on June 24, 2016.
On October 6, 2016, Mr. Browne filed a motion to suppress all evidence
resulting from the stop of his vehicle. A hearing was held on October 28, 2016. On
- November 8, 2016, the district court denied Mr. Browne’s motion to suppress. Mr.
Browne filed a motion to change his plea to guilty on November 9, 2016. Per a plea
agreement, Mr. Browne agreed to plead guilty to count two of the indictment and
reserved his right to appeal the district court’s denial of his suppression motion.
On November 14,2016, the government filed an offer of proof. On November
16, 2016, Mr. Browne pled guilty to the magistrate judge, and the magistrate filed

4

findings and recommendations recommending the district court accept Mr.
Browne’s guilty plea, which it did on December 2, 2016.
The court convened a sentencing hearing on March 15, 2017, and imposed a
sentence of 24 months imprisonment on count one followed by 2 years of supervised
release. The court approved Mr. Browne’s right to appeal its order denying the
suppression motion, and judgment was entered that same day.
Mr. Browne appealed on March 15, 2017.
The Ninth Circuit Court of Appeals affirmed on April 5, 2018. Appendix A.
The Ninth Circuit Court of Appeals denied Mr. Browne’s request for rehearing on
May 17, 2018.
FACTUAL BACKGROUND
This case begins with an anonymous tip. On Sunday, June 5,2016, Homeland
Security Agent Todd Holton in Kalispell, Montana, received an email from an
officer of the Royal Canadian Mounted Police (RCMP). The body of the email is
reproduced below, verbatim (including its spacing) and in its entirety:
Information as follows:
“Matt” white male Canadian with tattoo of lady on his neck entered the
US approximately three days ago in Vancouver area where US Customs
ripped vehicle with neg results;
Matt is driving a blue Chevrolet Avalanche with BC or California plates
and should be in Kalispell about now believed to be overnighting before
5

Lincoln County Sheriffs Detective Nate Scofield was aware of the tip.
Although he was a member of the NWDTF, he did not receive Agent Capser’s text
message. Instead, he received a phone call from another NWDTF member, Montana
Department of Criminal Investigations Agent Steve Spanogle.
Spanogle and Scofield differ on the content of that phone call. Spanogle
testified that he told Scofield that a blue Chevy Avalanche with British Columbia
license plates was transporting cocaine in the area.

Spanogle testified he told

Scofield the information originated with Agent Capser.
^

Scofield, however, testified that Spanogle told him “a blue Chevy Avalanche

with BC plates” was “headed towards the Yaak to transport across the U.S./Canada
border.” The Yaak refers, generally, to the expansive wilderness in northwest
Montana around the Yaak River.
4

Scofield was off-duty on the evening of Wednesday, June 8, 2016. At around
8:00 p.m., he spotted a blue Chevrolet Avalanche with British Columbia license
plates at a gas station in Libby, Montana. Libby is approximately ninety miles north
and west of Kalispell. The two towns are separated by the 2.4 million acre Flathead
National Forest.
Scofield began following the Avalanche, which was headed south on U.S.
Highway 2, towards Kalispell. As he did, he called Agent Capser to let him know
7

he was following a truck that matched the description of the truck in the anonymous
tip. Capser instructed Scofield to “keep a loose tail” and follow the truck towards
Kalispell.
Scofield also called Lincoln County Sheriffs Sergeant Brandon Holzer.
Scofield told Holzer that he was following a vehicle believed to be transporting
cocaine, and asked Holzer to follow him if he needed assistance. Scofield did not
provide Holzer with any of the details from the tip.
Nine miles outside of Libby, the Avalanche pulled over and turned around to
head north, back towards Libby. Scofield followed. The Avalanche approached a
hill, known colloquially as “Whiskey Hill.” Whiskey Hill is well-known locally as
a speed trap. Scofield called Holzer, who had not yet caught up to Scofield or the
Avalanche, to tell him that the Avalanche was heading back towards Libby and was
about to descend Whiskey Hill. Scofield instmcted Holzer to set up at the bottom
of Whiskey Hill to attempt to stop the Avalanche for speeding.
Holzer observed the Avalanche traveling 56 mph in a 50 mph zone. At
approximately 8:30 p.m., Holzer pulled the Avalanche over for speeding.
Holzer approached the driver of the Avalanche, who was identified as
Matthew Browne.

He retrieved Mr. Browne’s driver’s license and vehicle

registration. While Holzer was talking to Mr. Browne, Scofield arrived at the scene
8

and parked behind the Avalanche. Holzer gave the driver’s license to Scofield, and
told Scofield that Mr. Browne appeared nervous. Scofield took the license with him
to his car, and Holzer returned to his patrol vehicle. Holzer called dispatch regarding
the Avalanche’s registration. Dispatch confirmed the Avalanche was registered to
Matthew Browne. Holzer testified, “I was not processing any speeding ticket.”
While Holzer checked the vehicle registration in his patrol vehicle, Scofield
was in his car calling Capser. It is unclear the length of their conversation; however,
Scofield testified that Capser verified the first name of the driver of the Avalanche.
Scofield and Holzer exited their respective vehicles at approximately the same
time. Scofield questioned Mr. Browne for about five minutes. After he finished
these initial questions, Scofield directed Mr. Browne to turn off the truck. Scofield
then began making phone calls to locate an available canine investigation unit. He
' > found one in Dave Grainger, who would have to travel to the area from Bonners
Ferry, Idaho.
Scofield informed Mr. Browne that he had requested a canine unit to inspect
the Avalanche. Scofield told Mr. Browne that the reason for the inspection was that
Mr. Browne’s “story just doesn’t make any kinda sense.”

After a wait of

approximately forty-five minutes to an hour, Grainger arrived on the scene. He
inspected the exterior of the truck with the canine unit, and the canine “alerted” to
9

the presence of narcotics at the truck’s rear bumper. Around this time, Spanogle and
Capser also arrived at the scene. Spanogle obtained Mr. Browne’s consent to search
the vehicle. The officers discovered a secret compartment under the bed of the truck
containing one hundred and forty-five pounds of powder cocaine.
REASONS FOR GRANTING THE PETITION
A.

The district court ruled the traffic stop ended, and the criminal investigation
began, when Holzer exited his patrol car.
In its order denying suppression, the district court held
First, as a preliminary matter the Court finds that the investigation of
the traffic stop ceased, at the earliest, the moment Sergeant Holzer
stepped out of his patrol car to assist Detective Scofield in his
questioning of Browne.

United States v. Browne, 219 F.Supp.3d 1030, 1036 (D. Mont. 2016). Appendix D.
The Ninth Circuit did not directly address the issue, but it did rule that
reasonable suspicion was justified by the details of the tip corroborated by Scofield.
Browne, 111 Fed.Appx. at 751-52.

The Circuit did not consider any of the

information Scofield acquired during his questioning of Mr. Browne in its
reasonable suspicion analysis.
These decisions narrow the analysis: whether or not Scofield had reasonable
suspicion to extend the traffic stop into a drug investigation at the moment Holzer
exited his vehicle, ending the traffic stop.
10

B.

The anonymous tip did not provide sufficient reasonable suspicion.
Mr. Browne was stopped for a speeding violation. “A seizure justified only

by a police-observed traffic violation, therefore, becomes unlawful if it is prolonged
beyond the time reasonably required to complete the mission of issuing a ticket for
the violation.” Rodriguezv. United States, 135 S.Ct. 1609, 1612(2015). Inorderto
exceed the amount of time it took to effect the traffic stop, law enforcement must
have reasonable suspicion. Id. at 1615. “We have described reasonable suspicion
simply as ‘a particularized and objective basis’ for suspecting the person stopped of
criminal activity[.]” Ornelas v. United States, 517 U.S. 690, 696 (1996).
Holzer, the officer who initiated the traffic stop, testified he was not
processing a traffic ticket, and in fact, never issued a ticket.
1.

The tip was anonymous.

The district court and the Ninth Circuit agreed that the tip was anonymous.
Browne, 219 F.Supp.3datl036 n.7; Browne, 111 Fed.Appx. at 751. The information
originated with a foreign law enforcement agency, and that agency did not provide
details regarding how it learned the information.
anonymous.

Therefore, it was treated as

“Because the FBI did not provide the sheriffs department with

information about the basis of its tip, the tip should be treated as an anonymous tip.”

li

United States v. Morales, 252 F.3d 1070, 1074 (9th Cir. 2001) (applying United
States v. Thomas, 211 F.3d 1186, 1190 n.3 (9th Cir. 2000)).
2.

Anonymous tips demonstrate reliability through predictions.

The only information available to Scofield, who extended the traffic stop into
a drug investigation, was the information from the anonymous tip. Some of the
information in that tip was identifying information: the description of the truck (a
blue Chevy Avalanche with California or British Columbia license plates) and its
driver (a Canadian male named “Matt” with a tattoo of a woman on his neck).1 Some
- of the information predicted behavior: that the truck carried a substantial amount of
powder cocaine, and that the truck and driver were in Kalispell on June 5th and
would be meeting, in the “next day or two” (i.e., on June 6th or 7th), with
. accomplices to prepare the drugs for smuggling into Canada by backpackers.
“[A]n anonymous tip alone seldom demonstrates the informant’s basis of
knowledge or veracity inasmuch as ordinary citizens generally do not provide
extensive recitations of the basis of their everyday observations and given that the
veracity of persons supplying anonymous tips is ‘by hypothesis largely unknown,
and unknowable.’” Alabama v. White, 496 U.S. 325, 329 (1990) (quoting Illinois v.
Gates, 462 U.S. 213,237 (1983)); see also, Florida v. J.L., 529 U.S. 266,275 (2000)

1 Mr. Browne does not have a tattoo of a woman on his neck.
12

of cocaine inside a brown attache case.” Id. at 327. Like the tip in Mr. Browne’s
case, the tip in White can be broken down into identifying information (White’s
name, location, vehicle, and the brown attache case) and predictive criminal
information (exactly where White would be, exactly when she would leave the
apartment, exactly where she would go, and that she possessed cocaine).
Officers drove to the Lynwood Terrace Apartments. Id. They observed White
leave the apartment and get into a brown Plymouth station wagon with a broken right
taillight. Id. They followed White as she drove towards Dobey’s Motel, stopping
her just short of the motel itself. Id.
Although this Court deemed it a “close case,” it ruled that the officers had
reasonable suspicion to stop White, because “[w]hen significant aspects of the
caller’s predictions were verified, there was reason to believe not only that the caller
was honest but also that he was well informed, at least well enough to justify the
stop.” Id. at 332.
That is precisely what did not happen here. Law enforcement was provided
identifying information (the description of the truck and its driver) and information
predicting criminal behavior (the truck carried a substantial amount of powder
cocaine, and the truck and driver were in Kalispell on June 5th and would be
meeting, on June 6th or 7th, with accomplices prior to smuggling the drugs into
14

This Court began by noting that police officers can only “stop and frisk,” or
otherwise detain individuals, when the officer “observes unusual conduct which
leads him reasonably to conclude in light of his experience that criminal activity may
be afoot.” Terry v. Ohio, 392 U.S. 1, 30 (1968). ButinJ.Z.,
the officers’ suspicion that J.L. was carrying a weapon arose not from
any observations of their own but solely from a call made from an
unknown location by an unknown caller. Unlike a tip from a known
informant whose reputation can be assessed and who can be held
responsible if her allegations turn out to be fabricated, see Adams v.
Williams, 407 U.S. 143, 146-147 (1972), “an anonymous tip alone
seldom demonstrates the informant’s basis of knowledge or veracity,”
Alabama v. White, 496 U.S., at 329. As we have recognized, however,
there are situations in which an anonymous tip, suitably corroborated,
exhibits “sufficient indicia of reliability to provide reasonable suspicion
to make the investigatory stop.” Id., at 327. The question we here
confront is whether the tip pointing to J.L. had those indicia of
reliability.
J.L., 529 U.S. at 270 (parallel citations omitted).
This Court then reviewed the facts in White, explaining that “[o]nly after
police observation showed that the informant had accurately predicted the woman’s
movements, we explained, did it become reasonable to think the tipster had inside
knowledge about the suspect and therefore to credit his assertion about the cocaine.”
J.L., 529 U.S. at 270. Here, the informant did not accurately predict Mr. Browne’s
movements, and thus it was unreasonable to conclude the informant had inside
knowledge of Mr. Browne and therefore to credit his assertion about the cocaine.
16

Emphasizing the lack of predictive information, this Court explained why
officers could not reasonably suspect J.L. of criminal behavior:
The anonymous call concerning J.L. provided no predictive
information and therefore left the police without means to test the
informant’s knowledge or credibility. That the allegation about the gun
turned out to be correct does not suggest that the officers, prior to the .
frisks, had a reasonable basis for suspecting J.L. of engaging in
unlawful conduct: The reasonableness of official suspicion must be
measured by what the officers knew before they conducted their search.
All the police had to go on in this case was the bare report of an
unknown, unaccountable informant who neither explained how he
knew about the gun nor supplied any basis for believing he had inside
information about J.L.
Id. at 271.
The tip in this case made specific predictions - that the truck would be in
Kalispell on Monday or Tuesday to meet with the targets and distribute the cocaine
for smuggling over the border. These predictions are a “means to test the informant’s
knowledge or credibility.” Id. The informant failed that test, because the Avalanche
was not spotted in Kalispell on Monday or Tuesday, and was found ninety miles
away in Libby on Wednesday night.

This failure shows that the rest of the

information provided was unreliable. Unreliable information cannot serve as the
basis for reasonable suspicion. White, 496 U.S. at 330 (“Reasonable suspicion, like
probable cause, is dependent upon both the content of information possessed by
police and its degree of reliability.”).
17

Identifying information alone cannot serve as the basis for reasonable
suspicion. That is what the Ninth Circuit did when it found “especially compelling
the additional corroboration of the name of the driver.” Browne, 717 Fed.Appx. at
751-52. This Court, however, instructs that “a tip be reliable in its assertion of
illegality, not just in its tendency to identify a determinate person.” J.L., 529 U.S.
at 272.
Because Mr. Browne was not where the tip said he would be, when he would
be there, law enforcement failed to verify the reliability of the tip, and if anything,
verified its unreliability. Because the tip’s predictions failed, the tip was shown to
be unreliable, and there was no indicia of reliability on which to base reasonable
suspicion.
CONCLUSION
For the above reasons, the petition for a writ of certiorari should be granted.
Dated this 15th day of August, 2018.
/s/ John Rhodes
ANTHONY R. GALLAGHER
Federal Defender for the District of Montana
*JOHN RHODES
Assistant Federal Defender
Federal Defenders of Montana
125 Bank St., Ste. 710
Missoula, Montana 59802-9380
(406) 721-6749
*Counsel of Record
18

APPENDIX A
United States v. Matthew Desmond Browne,
111 Fed.Appx. 751 (9th Cir. 2018)

United States v. Browne, 717 Fed.Appx. 751 (2018)

717 Fed.Appx. 751 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure
32.1 generally governing citation
of judicial decisions issued on
or after Jan. 1, 2007. See also
U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of
Appeals, Ninth Circuit.
UNITED STATES of
America, Plaintiff-Appellee,
v.
Matthew Desmond BROWNE,
Defendant-Appellant.
No. 17-30042
Argued and Submitted March
7, 2018 Seattle, Washington
Filed April 05, 2018
Appeal from the United States District
Court for the District of Montana, Dana
L. Christensen, Chief Judge, Presiding, D.C.
No. 9:16-cr-00027-DLC-l
Attorneys and Law Firms
Jeffrey K. Starnes, Assistant U.S. Attorney,
USGF—Office of the U.S. Attorney, Great
Falls, MT, Leif Johnson, Assistant U.S.
Attorney, Tim Tatarka, Assistant U.S.
Attorney, Office of the US Attorney,
Billings, MT, for Plaintiff-Appellee
John
Rhodes,
Federal Public

Esquire,
Defender,

Assistant
FDMT—

Federal Defenders of Montana (Missoula),
Missoula, MT, for Defendant-Appellant
Before: RAWLINSON, CLIFTON, and
CHRISTEN, Circuit Judges.

MEMORANDUM *
Defendant-Appellant Matthew Browne
appeals the district court’s order denying
his motion to suppress evidence discovered
during a warrantless search of his vehicle.
We have jurisdiction under 28 U.S.C. § 1291,
and we affirm.
A district court’s denial of a motion to
suppress is reviewed de novo. United States
v. Gorman, 859 F.3d 706, 714 (9th Cir.
2017). “We review de novo whether the
police had reasonable suspicion to make
an investigatory stop, a mixed question of
law and fact.” United States v. Choudhry,
461 F.3d 1097, 1100 (9th Cir. 2006). The
district court’s underlying factual findings
are reviewed for clear error. Id. We may
affirm on any basis supported by the record.
Id.
1. Holzer had reasonable suspicion to
conduct a traffic stop because he witnessed
Browne speeding. See id. (“A traffic
violation alone is sufficient to establish
reasonable suspicion.”).
2. Scofield was justified in prolonging the
traffic stop because he had reasonable
suspicion that Browne was trafficking
narcotics. The anonymous tip that formed
the basis of Scofield’s reasonable suspicion

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Browne, 717 Fed.Appx. 751 (2018)

exhibited “sufficient indicia of reliability.”
Alabama v. White, 496 U.S. 325, 332,
110 S.Ct. 2412, 110 L.Ed.2d 301 (1990).
Scofield and Holzer were able to corroborate
many of the details of the anonymous
tip. The officers corroborated the make,
model, color, and country of registration
of the vehicle described in the tip. We find
especially *752 compelling the additional
corroboration of the name of the driver.
“It is true that not every detail mentioned
by the tipster was verified.” Id. at 331, 110
S.Ct. 2412. However, we conclude under
the totality of the circumstances that the
anonymous tip exhibited sufficient indicia of
reliability to justify Scofield’s prolongation
of the traffic stop.

l

Further, by calling multiple K-9 units
shortly after speaking with Browne, Scofield
“diligently pursued a means of investigation
that was likely to confirm or dispel [his]
suspicions quickly, during which time it was
necessary to detain [Browne].” United States
' v. Sharpe, 470 U.S. 675, 686, 105 S.Ct. 1568,

84 L.Ed.2d 605 (1985). Although it took
between forty-five minutes and an hour for
the K-9 unit to arrive, this delay did not
“unreasonably infringe[ ] interests protected
by the Constitution.” Illinois v. Caballes, 543
U.S. 405,407,125 S.Ct. 834,160 L.Ed.2d 842
(2005); see also Gallegos v. City of L.A., 308
F.3d 987, 992-93 (9th Cir. 2002) (forty-five
to sixty minute detention not unreasonable).
3. Browne’s reliance on United States v.
Magallon-Lopez, 817 F.3d 671 (9th Cir.
2016), is misplaced. Browne was in fact told
the true basis for why he was stopped and
why the stop was prolonged, so we need
not address his claim of a due process right
“to be informed of the true basis for a stop
or arrest.” Magallon-Lopez, 817 F.3d at 677
(Berzon, J., concurring).
AFFIRMED.

All Citations
717 Fed.Appx. 751 (Mem)

Footnotes
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.

1

We note that there were discrepancies between Detective Scofield’s testimony and the bodycam and audio recordings
of the traffic stop. Those discrepancies do not alter our determination that other corroboration provided objectively
reasonable suspicion to prolong the traffic stop, but we are nonetheless concerned that the record does not support many
of the details included in the detective’s testimony.

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

WE5TLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

APPENDIX B
United States v. Browne, No. 17-30042
Order Denying Petition for Panel Rehearing and Rehearing En Banc

Case: 17-30042, 05/17/2018, ID: 10875596, DktEntry: 41, Page 1 of 1

F LED
MAY 17 2018

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

17-30042

D.C. No.
9:16-cr-00027-DLC-1
District of Montana,
Missoula

MATTHEW DESMOND BROWNE,
Defendant-Appellant.

ORDER

Before: RAWLINSON, CLIFTON, and CHRISTEN, Circuit Judges.
The panel has unanimously voted to deny Defendant-Appellant’s petition for
■t

panel rehearing. Judges Rawlinson and Christen have voted to deny the petition
for rehearing en banc, and Judge Clifton has so recommended.
The full court has been advised of Defendant-Appellant’s petition for
rehearing en banc, and no judge of the court has requested a vote on the petition for
rehearing en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are
DENIED.

APPENDIX C
U.S. Const. Amend. IV

r

The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

APPENDIX D
United States v. Browne,
219 F.Supp.3d 1030 (D. Mont. 2016)

United States v. Browne, 219 F.Supp.3d 1030 (2016)

219 F.Supp.3d 1030
United States District Court,
D. Montana,
Missoula Division.
UNITED STATES of America, Plaintiff,
v.

Matthew BROWNE, Kristopher Pfeifer,
and Preston Lahmer, Defendants.
CR16-27-M-DLC
Signed 11/08/2016
Synopsis
Background: In prosecution for narcotics
trafficking, defendant filed motion to
suppress evidence seized from search of his
vehicle.

Motion denied.

Attorneys and Law Firms
*1032 Jeffrey K. Starnes, Lead Attorney;
Attorney to be Noticed, Office of the
U.S. Attorney, Great Falls, MT, William
Adam Duerk, Attorney to be Noticed,
U.S. Attorney's Office, Missoula, MT, for
Plaintiff.
John Rhodes, Lead Attorney; Attorney to
be Noticed, Federal Defenders of Montana,
Eric Ryan Henkel, Lead Attorney; Attorney
to be Noticed, Reep Bell Laird Simpson
& Jasper, P.C., Bryan C. Tipp, Sarah M.
Lockwood, Lead Attorney; Attorney to be
Noticed, Tipp & Buley, P.C., Missoula, MT,
for Defendants.

Holdings: The District Court, Dana L.
Christensen, Chief Judge, held that:

ORDER

[1] traffic stop was supported by reasonable
suspicion that defendant was speeding;

Dana L. Christensen, Chief District Judge,
United States District Court

[2] officers had independent reasonable
suspicion that defendant was engaged in
narcotics trafficking, as basis for prolonging
the stop;

Defendant Matthew Browne (“Browne”)
moves the Court to suppress the evidence
seized from the search of his vehicle on
June 8, 2016, and his related statements to
law enforcement. For the reasons explained
below, the Court denies Browne's motion.

[3] prolonging the stop for 45 to 60 minutes,
so a canine unit could arrive, was supported
by individualized suspicion of narcotics
trafficking; and
[4] defendant did not have due process right
to be told the true reason for the traffic stop.

FACTUAL AND PROCEDURAL
BACKGROUND

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Browne, 219 F.Supp.3d 1030 (2016)

On approximately June 5, 2016, Troy
Capser (“Agent Capser”), a special agent
with the Department of Homeland Security
Investigations Division (“HSI”), received a
tip from Constable Jeff Meyers (“Constable
Meyers”) of the Royal Canadian Mounted
Police, that a large amount of cocaine was
going to be smuggled through Montana
into Canada. Constable Meyers told Agent
Capser that a blue Chevy Avalanche with
British Columbia or California license plates
would be driving through or near Kalispell,
Montana, sometime in the next few days.
This truck would be driven by a man named
Matt and have a false bed loaded with
cocaine. The drugs, according to Constable
. , Meyers, were to be backpacked into Canada
through a remote area near Libby, Montana,
known as the Yaak. Constable Meyers,
however, did not tell Agent Capser the
. source of the information.
Agent Capser quickly sent out a text
message to other law enforcement officers
. in the region relaying some, but not all
of Constable Meyer's information.1 Agent
Capser told the officers to be on the lookout
over the next few days for a blue Chevy
Avalanche with British Columbia license
plates. This vehicle, Agent Capser told the
officers, was headed towards the Yaak where
the drugs would be taken into Canada.
This information was relayed to additional
officers, including Detective Nate Scofield
(“Detective Scofield”) of the Lincoln County
Sheriffs' Office.
Detective Scofield received the tip on June 6,
2016. Two days later, on June 8, he located
a vehicle matching that description near

Libby, Montana, and began to follow it. The
vehicle was leaving town and heading east
towards Kalispell, Montana. After driving
for a few miles, the truck turned around
and started driving west, back towards
Libby. During this time, Detective Scofield
contacted Agent Capser by cell phone and
explained that he was following a vehicle
matching the description supplied in the tip.
Agent Capser told him to find a lawful
reason to pull the truck over.
Seeing an opportunity, Detective Scofield
quickly called Sergeant Brandon Holzer
(“Sergeant Holzer”), a sheriffs deputy with
the Lincoln County Sheriffs' Office, and
explained he was following a blue *1033
Chevy Avalanche suspected of carrying
drugs. Detective Scofield told Sergeant
Holzer to park at the bottom of a hill
heading into Libby and see if he could catch
the truck speeding. This area, known as
Whiskey Hill, was well known for speeding
due to its incline and successive reduced
speed limits. Sergeant Holzer was told to set
up his radar gun and wait for the truck. As
predicted, Sergeant Holzer clocked the truck
going six miles over the posted speed limit
and stopped the vehicle.
Sergeant Holzer approached the truck and
spoke with the driver and sole occupant,
Defendant Matthew Browne (“Browne”).
Sergeant Holzer told Browne that he had
stopped him for speeding and asked for his
license, registration, and proof of insurance.
Browne complied and Sergeant Holzer asked
what he was doing in Montana. Browne
replied that he was on a road trip. After
confirming that Browne owned the vehicle,

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Browne, 219 F.Supp.3d 1030 (2016)

Sergeant Holzer asked how much longer he
would be in the United States. Browne said
another week. Sergeant Holzer told him to
“hold tight” and headed back to his patrol
car with Browne's driver's license, vehicle
registration, and proof of insurance. This
initial interaction took roughly 90 seconds.

further learned that Browne had been in
the United States for the last couple of
weeks, but could not remember the day he
entered the country. Nonetheless, Browne
told Detective Scofield that he had entered
the country through Washington and then
drove through Oregon to California.

At this time, Detective Scofield had just
arrived on scene and Sergeant Holzer
quickly relayed to him that Browne
was shaking. Sergeant Holzer also later
testified at the suppression hearing that
Browne was visibly shaking, in particular
his hands, and his throat was pounding on

At this point, Detective Scofield noticed
that Browne was wearing “hunting pants” 4
and asked if he had any weapons in the
vehicle. Browne said no and they began
to discuss hunting. Browne said he was
“a big hunter” in Canada and Detective
Scofield asked where he hunted. Browne
replied that he hunted near Hundred Mile,
Seventy Five Mile, and Fifty Mile. After
confirming that those were *1034 town
names, Detective Scofield asked Browne if
he visited anyone while he was California.
Browne said no. After further questioning,
Detective Scofield was told that Browne
had taken about two or three days to drive
to California, where he stayed for around
a week. Detective Scofield asked Browne
what he did while he was in California
and he replied that he attended a Dodgers
game and went to San Diego. Detective
Scofield then confirmed for a second
time that Browne had not visited anyone.
Like Sergeant Holzer, Detective Scofield
confirmed that the vehicle was registered
to Browne in British Columbia. Following
this confirmation, Detective Scofield told
Browne his story seemed “weird” and asked
a series of questions about whether Browne
was in possession of narcotics, including
cocaine. Browne replied to each question in
the negative. With that, Detective Scofield

the side of his neck. Detective Scofield
took Browne's license from Sergeant Holzer
and made a cell phone call to Agent
Capser. Sergeant Holzer returned to his
patrol car and radioed for a registration
check. Agent Capser, who had been driving
to Libby from' Kalispell, told Detective
Scofield that the driver's name would be
Matt, and after confirming with Scofield
that the driver's name was Matt, Agent
Capser told Scofield that they had stopped
the suspected smuggler. Detective Scofield
finished his phone call with Agent Capser
and approached the truck to talk with the
Browne.
At the truck, Detective Scofield introduced
himself to Browne and confirmed that
Browne's name was Matt. Detective Scofield
asked if he had a minute to talk and
Browne said yes. Detective Scofield began
questioning Browne about his travel plans
and learned that he was allegedly driving
to Washington through Idaho and then
returning to Canada. Detective Scofield

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Browne, 219 F.Supp.3d 1030 (2016)

told Browne to “hang tight for a minute” and
to “shut the truck off.”
At this point, Detective Scofield began
calling various law enforcement officers for
a K-9 unit. Within minutes, United States
Border Patrol Agent and Canine Handler
David Grainger (“Agent Grainger”) called
back and said he would head over to Libby.
Agent Grainger's duty station is in Bonners
Ferry, Idaho, roughly 45 to 60 minutes away
from Libby. Agent Grainger testified that
there are no K-9 units in Libby and he
was most likely the nearest unit. He arrived
roughly 45 to 60 minutes later and ran
his canine around the vehicle. The canine
immediately “alerted” to the rear of the
vehicle. Detective Scofield asked Browne for
his consent to search the truck and verbal
consent was given. A search of the vehicle
revealed a false bottom under the bed of
the truck where roughly 145 pounds of
cocaine were found. Browne was taken into
custody and Mirandized. He subsequently
made incriminating statements.

DISCUSSION
Browne contends that his Fourth
Amendment rights were violated when
he was stopped and allegedly unlawfully
detained. Specifically, Browne contends
that: (1) law enforcement lacked reasonable
suspicion to stop his vehicle; (2) law
enforcement unduly prolonged the traffic
stop; (3) law enforcement unlawfully seized
him; (4) law enforcement lacked reasonable
suspicion to detain him; (5) his due process
right's right were violated because law

enforcement did not inform him of the true
basis for the stop; and (6) all evidence that
resulted from the stop must be suppressed.

A. Reasonable Suspicion for the Traffic
Stop
|1] [2] As discussed, Browne challenges the
traffic stop as unreasonable. This threshold
inquiry is dispositive to Browne's motion.
If law enforcement violated Browne's
Fourth Amendment right to be free from
“unreasonable searches and seizures” when
he was stopped, “then all evidence seized as
a result of the stop must be suppressed as
the fruit of the poisonous tree.” U.S. Const,
amend. IV; United States v. Morales, 252
F.3d 1070, 1073 (9th Cir. 2001) (citing Wong
Sun v. United States, 371 U.S. 471, 484485, 83 S.Ct. 407, 9 L.Ed.2d 441 (1963)).
In order to stop, i.e., seize an individual,
“law enforcement officers must have at least
a reasonable suspicion of criminal activity
before stopping a suspect.” Morales, 252
F.3d at 1073 (citing Terry v. Ohio, 392 U.S.
1, 30, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968));
see also *Delaware v. Prouse, 440 U.S. 648,
653, 99 S.Ct. 1391, 59 L.Ed.2d 660 (1979)
(extending Terry to car stops). Reasonable
suspicion is “a particularized and objective
basis for suspecting the particular person
stopped of criminal activity.” *1035 United
States v. Thomas, 211 F.3d 1186, 1189 (9th
Cir. 2000) (internal quotation marks and
citation omitted). “Reasonable suspicion
requires specific, articulable facts which,
together with ‘objective and reasonable’
inferences, form a basis for suspecting that
a particular person is engaged in criminal
conduct.” Id. (citation omitted).

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Browne, 219 F.Supp.3d 1030 (2016)

Holzer stepped out of his patrol car to
assist Detective Scofield in his questioning
of Browne. The Court bases this finding on
Sergeant Holzer's testimony that after he
called in Browne's registration and received
no “hits” back, he stopped investigating the
traffic violation because it was obvious to
him that Detective Scofield's investigation
into suspected narcotics trafficking had
taken over. Thus, the Court must determine
if further detainment of Browne by Detective
Scofield was justified by independent
reasonable suspicion.

110 S.Ct. 2412. This is due to the fact that
an anonymous tip is inherently unreliable
because the source of the information
“cannot be held accountable if he or she
provides inaccurate information, and the
police cannot assess the tipster's reputation.”
J.L., 529 U.S. at 270, 120 S.Ct. 1375.

[10] Thus, to determine if an anonymous
tip has a sufficient “indicia of reliability to
serve as the basis for [reasonable *1037
suspicion], the tip must include a range
of details, and it must predict future
actions by the suspect that are subsequently
The Government argues that the anonymous corroborated by the police.” Morales, 252
n
tip
provided by Constable Meyers F.3d at 1074-75 (citing White, 496 U.S.
justified further detainment of Browne at 329, 110 S.Ct. 2412) (quotation marks
because it was corroborated by Detective omitted); see also *Illinois v. Gates, 462
Scofield. The Goverment contends that U.S. 213, 245, 103 S.Ct. 2317, 76 L.Ed.2d
this corroboration established independent 527 (1983) (Court found anonymous letter
reliable because it “contained a range of
reasonable suspicion. The Court agrees.
details relating not just to easily obtained
[9] “In certain circumstances, an facts and conditions existing at the time
[8]
anonymous tip can serve as the basis for of the tip, but to future actions of third
reasonable suspicion.” Morales, 252 F.3d parties ordinarily not easily predicted”).
at 1074 (citing Alabama v. White, 496 U.S. Additionally, corroboration of the facts
325, 327-328, 110 S.Ct. 2412, 110 L.Ed.2d supplied in the tip enhance the reliability
301 (1990). However, “an anonymous tip and veracity of the information and thus
standing alone does not” support a finding strengthen the possibility that criminal
of reasonable suspicion. Morales, 252 F.3d activity is taking place. See * Gates, 462
at 1074—75 (citing Florida v. J.L., 529 U.S. U.S. at 244, 103 S.Ct. 2317 (“Because an
266, 270, 120 S.Ct. 1375, 146 L.Ed.2d 254 informant is right about some things, he
(2000)). Instead, “something more” than is more probably right about other facts.”)
just the information is needed. White, 496 (citation omitted).
U.S. at 329, 110 S.Ct. 2412. To determine
if an anonymous tip supports a suspicion Here, by the time Detective Scofield first
that criminal activity is taking place, courts spoke with Browne, he had independently
look to the totality of the circumstances to corroborated specific factual details supplied
establish if the information was supported in the anonymous tip, including: the
by an “indicia of reliability.” Id. at 331, name of the driver (Matt), the make,

WI5TIAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Browne, 219 F.Supp.3d 1030 (2016)

model, and color of the vehicle (blue
Chevy Avalanche), and the vehicle's place
of registration and country of origin
(British Columbia, Canada). Further, the
tip accurately predicted the vehicle's general
location (near or heading to the Yaak) and
general time frame for when the vehicle
was suppose to be heading to this location

is not an ordinary incident of a traffic
-U.S.
stop.” Rodriguez v. United States,
----- , 135 S.Ct. 1609, 1615, 191 L.Ed.2d492
(2015). Thus, use of a canine unit to conduct
a sniff search which prolongs a stop is only
permissible if it is *1038 independently
supported by an officer's individualized
suspicion. Id. at 1616-1617.

(a couple of days after June 5, 2016). 8
Finally, Detective Scofield also knew from
his brief conversation with Sergeant Holzer
that Browne was shaking.9 The Court
finds that these specific and objective facts
support a finding of particularized suspicion
that Browne may have been involved
with criminal activity, specifically narcotics
trafficking. Specifically, the Court finds that
it was reasonable for Detective Scofield to
briefly prolong the traffic stop for further
investigation based on the corroborated
facts from the anonymous tip and Sergeant
Holzer's description of Browne's demeanor.

Here, after speaking with Browne, which
took roughly four minutes,10 Detective
Scofield told Browne to “hold tight” and
immediately called Agent Grainger for use
of his canine unit. Agent Grainger arrived
between 45 to 60 minutes later and quickly
conducted a sniff search. Consequently,
Browne was detained an additional 45 to 60
minutes beyond the point the initial traffic
stop investigation had ceased. As discussed
below, the Court finds that this prolongation
was reasonable because it was supported by
independent and particularized suspicion.

The Court bases this finding on multiple
reasons. First, as discussed, Detective
C. Prolonged Stop for Canine Search
[11] Browne next argues that law Scofield
had already independently
enforcement unlawfully prolonged the corroborated multiple specific factual details
traffic stop in order to allow for the canine alleged in the anonymous tip. Thus, at this
unit to arrive. The Court again disagrees.
point it was extremely likely that Browne
was the suspect described in the tip. Second,
[12] [13] “In assessing whether a detention Sergeant Holzer told Detective Scofield
is too long in duration to be justified as an that Browne was acting nervous. Third,
investigative stop, we consider it appropriate Detective Scofield testified that Browne's
to examine whether the police diligently description of his travels were “very vague.”
pursued a means of investigation that was Specifically, Browne told Detective Scofield
likely to confirm or dispel their suspicions that he could not remember the day he
quickly, during which time it was necessary entered the United States. Browne also
to detain the defendant.” United States v. stated that he had been traveling for multiple
Sharpe, 470 U.S. 675, 686, 105 S.Ct. 1568, weeks through Washington, Oregon, and
84 L.Ed.2d 605 (1985). “[A] dog sniff ... California, before driving up to Montana,

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Browne, 219 F.Supp.3d 1030 (2016)

but did not provide any details about his
trip, apart from attending a Dodgers game
and going to San Diego. Detective Scofield
further found it odd that Browne could not
name any people he had met or visited. This
lack of detail was not normal to Detective
Scofield and, based upon his training as
a law enforcement officer, he concluded
that Browne was holding back information
about his travels. At this point, Detective
Scofield testified that he suspected Browne
of trafficking narcotics.11
Under these circumstances, the Court
concludes
that
Detective
Scofield's
suspicions were particularized and based
on specific and articulable facts. Detective
Scofield's conclusion that Browne was
likely involved with drug smuggling was
reasonable. Accordingly, further detainment
of Browne to allow for a sniff
search would have quickly confirmed or
dispelled Detective Scofield's suspicions.
Prolongation of the stop thus did not violate
Browne's Fourth Amendment rights.

12

Further, the Court finds that the length of
time needed to allow for the canine unit to
arrive on scene was reasonable. The stop
occurred in a rural area of Montana by a
town that did not have a resident canine
unit. Further, Agent Grainger testified that
he was the nearest canine unit and he arrived
as quickly as he could. Thus, under these
facts it was reasonable to prolong the stop
for an additional 45 to 60 minutes to allow
for the sniff search. *1039 See United States
v. $102,836.00 in U.S. Currency, 9 F.Supp.3d
1152, 1161 (D. Nev. 2014) (Detainment of
suspect for twenty to thirty minutes beyond

the initial traffic stop to wait for nearest
canine unit was reasonable).
Lastly, Browne argues that United States v.
Morales is controlling to this case. Morales,
similar to this case, involved an anonymous
tip concerning a specific vehicle traveling to
an identified location. Morales, 252 F.3d at
1071-1072. The officers in Morales stopped
the vehicle under a good faith but mistaken
belief that it was operating in violation
of the law. Id. at 1072. In spite of this
erroneous belief, the Government argued
that the stop was still lawful based solely
on details provided in the tip that were
subsequently corroborated by the officers,
including: (1) the make, model, and year of
the vehicle; (2) an alternative licence plate
number for the vehicle; (3) the number of
occupants in the vehicle; and (4) the vehicle's
general direction of travel. However, the
Ninth Circuit affirmed the district court's
suppression order after concluding the
tip “did not possess sufficient indicia of
reliability to justify an investigative stop of
the defendants' car.” Id. at 1077 (citing J.L.,
529 U.S. at 271, 120 S.Ct. 1375) (quotation
marks omitted).
Here, unlike Morales, Sergeant Holzer had
reasonable suspicion to stop Browne because
he committed a genuine traffic violation. As
discussed, following this initial lawful stop,
Detective Scofield developed independent
and particularized suspicion that Browne
was trafficking narcotics. In addition to
the information provided in the tip that
was subsequently corroborated by Detective
Scofield, he was also told by Sergeant
Holzer that Browne was acting nervous.

WE5TLAW © 2018 Thomson Reuters. No claim to original U.S, Government Works.

8

United States v. Browne, 219 F.Supp.3d 1030 (2016)

These facts support Detective Scofield's
initial questioning which prolonged the
stop by a mere four minutes. Further,
after speaking with Browne, Detective
Scofield's suspicions were additionally
heightened because he found Browne's
story to be vague and lacking in detail.
Due to this lack of detail, Detective
Scofield determined that Browne was hiding
something, most likely criminal activity.
This case is thus distinguishable from
Morales. Consequently, the Court rejects
Browne's argument that law enforcement
lacked reasonable suspicion to detain him
and prolong the traffic stop.

D. Browne's Due Process Rights
[14] Browne also argues that his due process
rights under the Fifth Amendment were
violated because he was never told the
true basis for stop. However, the United
States Supreme Court has never recognized
the right to be told the reason for one's
detainment. See *Devenpeck v. Alford, 543
U.S. 146, 155, 125 S.Ct. 588, 160 L.Ed.2d

537 (2004) (“While it is assuredly good police
practice to inform a person of the reason
for his arrest at the time he is taken into
custody, we have never held that to be
constitutionally required.”); but see *United
States v. Magallon-Lopez, 817 F.3d 671, 677
(9th Cir. 2016) (Berzon, J., concurring) (“I
would not foreclose, in another case, holding
that there is a due process (not Fourth
Amendment) based right to be informed of
the true basis for a stop or arrest.”). The
Court declines to hold otherwise.
In conclusion, because the Court has
found that Browne's stop and subsequent
prolonged detainment were lawful under the
Fourth Amendment, the Court will deny his
motion to suppress. Accordingly,
IT IS ORDERED that Defendant Matthew
Browne's Motion to Suppress (Doc. 71) is
DENIED.

All Citations
219 F.Supp.3d 1030

Footnotes
At the suppression hearing, it was not clear if Agent Capser initially told Detective Nate Scofield, the law enforcement
1
2
3
4
5

officer who initiated the stop of Browne's truck, that the driver of the vehicle would be named Matt.
Based on a review of Sergeant Holzer's body camera video from the stop, the Court believes that he meant to say
“shaking,” but it sounds as if he said the word in a slang manner, i.e., “shaken” or “shakin.”
Browne's hands and most of his body are not visible on the body camera video. However, the Court did not see anything
on the video that would contradict Sergeant Holzer's physical description of Browne.
At the suppression hearing, Detective Scofield confirmed that Browne was wearing camouflage pants when he was
stopped.
Browne also points to the fact that Browne never received a speeding ticket as a result from the stop and argues that
this cuts against the Goverment's argument that he was speeding. The Court disagrees. First, Sergeant Holzer testified
that he generally does not issue speeding tickets for driving six miles over the posted speed limit. Second, Sergeant
Holzer further testified that the motivating factor behind the stop was the suspicion that Browne was trafficking narcotics.
Because pretextual traffic stops are permissible as long as they are supported by a genuine traffic violation, the Court
is not surprised that Browne was not issued a speeding ticket. See #United States v. Choudhry, 461 F.3d 1097, 1102
(9th Cir. 2006) (“[A] traffic violation was sufficient to justify an investigatory stop, regardless of whether (i) the violation

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Browne, 219 F.Supp.3d 1030 (2016)

6

' 7
* t

f

8
r
•v

9

10
11

12

was merely pretextual.'(ii) the stop departed from the regular practice of a particular precinct, or (iii) the violation was
common and insignificant.").
The Court also notes that Montana law requires a driver to “operate a vehicle in a careful and prudent manner and at a
reduced rate of speed no greater than is reasonable and prudent under the conditions existing at the point of operation,
taking into account the amount and character of traffic, visibility, weather, and roadway conditions." Mont. Code. Ann.
§ 61-8-303(3). Here, it is undisputed that it was heavily raining at the time of the traffic stop. Further, Browne argued
in his brief that standing water existed on the highway at the time he was allegedly attempting to pass. The evidence
thus suggests that weather and roadway conditions at this time were not conducive to operating a vehicle in excess of
the posted speed limit. The Court thus finds that even if Browne was attempting to pass, this was neither reasonable
nor prudent under the conditions.
At the hearing, Agent Capser testified that he was not aware of Constable Meyer's source for the information supporting
the tip. The Court will thus treat this information as an anonymous tip. See #Morales, 252 F.3d at 1074 (Ninth Circuit
found that .tip passed from one law enforcement agency to another was considered anonymous because information
about the source of the tip was not provided).
The Court recognizes that under White, an investigatory stop based solely on Constable Meyer’s tip may not have
been reasonable. In White, prediction and subsequent corroboration of a suspect's specific future movements by an
anonymous tip were required to conduct an investigatory stop based on reasonable suspicion. See UWhite, 496 U.S.
at 332, 110 S.Ct. 2412. Here, the tip only predicted Browne's future travels in general terms. However, in contrast to
White, the initial stop was based on a valid traffic violation. Following this valid traffic stop, Detective Scofield established
independent reasonable suspicion that illegal activity was taking place which justified prolonging the stop. This case is
thus distinguishable from White.
Detective Scofield testified that he understood Sergeant Holzer's comments to mean that Browne was acting nervous.
As'discussed above, the Court finds that it was reasonable for Detective Scofield to detain and question Browne for
these additional four minutes.
Detective Scofield also testified that Browne was wearing camouflage pants the day he was stopped and asked him
questions about his hunting activities. Detective Scofield testified that he found Browne's description of his past hunting
activities odd. The Court neither agrees nor disagrees with Detective Scofield's determination that Browne's description
of his hunting activities was odd. However, the Court notes that it would be a logical inference to connect camouflage
clothing with drug smuggling, apparently since the drugs in question were going to be transported by foot across the
Canadian border in heavily wooded terrain.
The Court bases this finding in large part on the testimony of Detective Scofield. The Court found Detective Scofield to
be/a credible witness and placed great weight on his testimony.

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

10

